No. 20-107
Cedar Point Nursery, et al.,
Petitioners
v.
Victoria Hassid, et al.,

CERTIFICATE OF SERVICE
I hereby certify that on September 2, 2020, I served the Reply Brief for
Petitioner in the above-captioned matter on counsel for Petitioners and
Respondents by both email and by third-party commercial carrier for delivery
within 3 calendar days. Packages were plainly addressed to:
WENCONG FA
PACIFIC LEGAL FOUNDATION
930 G Street
Sacramento, CA 95814
Email: wfa@pacificlegal.org

JOSHUA PATASHNIK
CALIFORNIA DEPARTMENT OF JUSTICE
455 Golden Gate Ave., Suite 11000
San Francisco, CA 94102
Email: josh.patashnik@doj.ca.gov

Executed this 2nd day of September, 2020.

/s/ Jeffrey Redfern
Jeffrey Redfern
Counsel for Amicus Curiae

